OIG Investigative Reports, Florida Man Pleads Guilty to $800,000 Student Loan Fraud Scheme
Skip to main contentAbout UsContact UsFAQs Language Assistance Englishespañol中文: 繁體版Việt-ngữ한국어TagalogРусский
U.S. Department of Education
Search for:
Toggle navigation
U.S. Department of Education
Student Loans
Grants
Laws
Data
About ED
OFFICES
Home
Reports & Resources
Programs/Initiatives
News
Office Contacts
Investigative Reports
PRESS RELEASE:
Boston, MA March 01, 2000
United States Courthouse, Suite 9200:
1 Courthouse Way
Boston, Massachusetts
FLORIDA MAN PLEADS GUILTY TO $800,000 STUDENT LOAN FRAUD SCHEME WHILE SERVING SENTENCE FOR PREVIOUS CONVICTION ON IDENTICAL SCHEME
Boston, MA -  A Florida resident admitted today that he was responsible for submitting
multiple fraudulent student loan applications over a three-year period.
United States Attorney Donald K, Stern announced today that CONRAD CORTEZ, age 38, of Miami, Florida, pled guilty today before U.S. District Court Judge Rya Zobel to numerous counts of mail fraud, bank fraud and social security account number fraud. stemming from his submission of nineteen fraudulent student loan applications to agencies acid banks in Massachusetts.
According to documents filed earlier with the Court, CORTEZ , while incarcerated and on federal supervised release for a 1996 conviction for a similar scheme, filed the fraudulent
student loan applications falsely claiming to be an enrolled student at foreign medical schools.  Once CORTEZ obtained the money, he used it for his personal benefit. CORTEZ was arrested in Florida in August of 1999 on a criminal complaint stemming from the new charges. He was
transferred to Massachusetts and has been held in custody since his arrest.
U.S. Attorney Stern stated: "Mr. Cortez has once again stolen money from the federal student loan program -- money that otherwise would have gone to deserving students with legitimate funding needs. In today's climate of ever increasing education costs, it is essential that
such fraud be exposed and rectified. Mr. Cortez's brazen and greedy scheme no doubt angers
every student who benefitted from a loan and worked hard to pay it back."
At today's hearing before Judge Zobel, a federal prosecutor told the court that CORTEZ was responsible for filing 19 federal student loan applications over a three-year period as part of a scheme to defraud the U.S. Department of Education. The Department oversees the Federal Family Education Loan Program and is responsible for guaranteeing and re-insuring the loans made by private lenders. CORTEZ used false social security account numbers in filing for the
benefits under the loan program. As a result of filing the false applications and obtaining funds, CORTEZ defrauded both Bank Boston and Fleet Bank during the execution of this scheme.
In addition to the 19 loans here in Massachusetts, the prosecutor told the court that CORTEZ was responsible for dozens of other loans filed outside of the Commonwealth and, as a result, is responsible for defrauding the government of more than $800,000. As a result of the plea. the government is also seeking forfeiture of any assets CORTEZ may have to satisfy the loss to the government.
Judge Zobel set sentencing for May 4, 2000 at 10:00 a.m. CORTEZ faces maximum penalties of 30 years on each of the bank fraud counts and a maximum fine of $1 million. The mail fraud and social security fraud counts carry a maximum penalty of 5 years' imprisonment and a fine of up to $250,000.
The case was investigated by agents from the U.S. Department of Education's Office of Inspector General. both in Massachusetts and New York; the Social Security Administration: the
U.S. Postal Inspection Service; and the Federal Bureau of Investigation. The case is being
prosecuted by Assistant U.S. Attorneys Nadine Pellegrini of Stern's Major Crimes Unit and
Jennifer Boal of Stern's Asset Forfeiture Unit.
Press Contact: Samantha Martin, (617) 748-3139
Top
Printable view
Share this page
Last Modified: 03/03/2005
How Do I Find...
Student loans, forgiveness
College accreditation
No Child Left Behind
FERPA
2015 Budget Proposal
FAFSA
More >
Information About...
Transforming Teaching
Family and Community Engagement
Early Learning
K-12 Reforms
More >
Connect
Facebook
Twitter
YouTube
Email
RSS
Google+
More >
MISUSED
FOIA
OIG Fraud Hotline
Our mission is to promote student achievement and preparation for global competitiveness by fostering educational excellence and ensuring equal access.
Student Loans
Repaying Loans
Defaulted Loans
Loan Forgiveness
Loan Servicers
Grants & Programs
Apply for Pell Grants
Grants Forecast
Open Grant Competitions
Find Grant Programs by Eligibility
Laws & Guidance
No Child Left Behind
IDEA
Civil Rights
Significant Guidance
Data & Research
Education Statistics
Integrated Postsecondary Education Data System
Nation's Report Card
What Works Clearinghouse
About Us
Contact Us
Jobs
News
FAQs
Budget, Performance
Notices FOIAPrivacySecurityInformation qualityInspector GeneralWhitehouse.govUSA.govBenefits.govRegulations.gov